         estimony

                    STATEMENT OF
                 ROBERT J. LIEBERMAN
              DEPUTY INSPECTOR GENERAL
               DEPARTMENT OF DEFENSE
                      BEFORE THE
         SUBCOMMITTEE ON NATIONAL SECURITY,
    VETERANS AFFAIRS AND INTERNATIONAL RELATIONS,
       HOUSE COMMITTEE ON GOVERNMENT REFORM
                          ON
        TOP DEFENSE MANAGEMENT CHALLENGES



Report No. D-2001-083        DELIVERED: March 15, 2001



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Committee:

I am pleased to be here this morning to discuss the management
challenges facing the Department of Defense, from the standpoint
of its internal auditors and investigators. My testimony will
summarize and update the written analysis that we provided to
various congressional leaders last December 1.* In that
analysis, we identified 10 areas, each containing multiple
significant challenges. Those areas were: (1) information
technology management, especially acquiring new systems; (2)
information system security; (3) other security concerns; (4)
financial management; (5) acquisition of weapons, supplies and
services; (6) peacetime health care; (7) supply inventory
management; (8) other infrastructure issues; (9) readiness; and
(10) human capital management.

Information Technology Management

Information systems are now as crucial to DoD management
activities as the central nervous system is to the human body.
Managers at all levels, regardless of their functions, depend on
information that is compiled, analyzed, adjusted and reported
with automated systems. During the Year 2000 computer
conversion project, approximately 10,000 DoD computer networks
were inventoried and the true extent of the Department's
dependence on those systems became well understood for the first
time. The magnitude of DoD spending on information technology
is less well identified, but clearly it far exceeds $20 billion
annually.

Given the considerable dependence on "IT" and the high cost of
large system investments, the historically poor record of the
DoD for controlling the proliferation of incompatible systems
with nonstandard data elements, acquiring new systems that meet
user needs within reasonable timeframes, controlling cost, and
ensuring the quality and security of data has been a major
concern. Recognizing that such problems are common across the
Federal Government, the Congress specified in the Clinger-Cohen
Act of 1996 that Chief Information Officers in each agency would
oversee well disciplined information technology acquisition
processes. This is a daunting challenge for a department with
71 major information system acquisition projects and hundreds of
"smaller" system acquisition and modification projects belonging
to dozens of organizations. The DoD has been candid about the
need for more effective management controls in this crucial
*
 The letters of December 1, 2000 and the last several Inspector General Semiannual Reports to the Congress, which
contain similar analyses of high risk areas, are available on-line at www.dodig.osd.mil.
                                                                   2


area, but progress has been slow and the goals of the Clinger-
Cohen Act have not yet been achieved.

I have mentioned the challenge of information system investments
first because poor information is at the root of a very large
number of DoD management problems, ranging from difficulty in
making cost comparisons to poor supply inventory management
practices. Due to your series of hearings on the backlog of
personnel security clearance investigations, I know that you are
particularly well aware of the serious problems caused by the
failure of the Defense Security Service's Case Control
Management System. Its problems were particularly egregious,
but not unique by any means.

The Department has revised its basic information system
acquisition procedures and tried to be responsive to our
recommendations. Nevertheless, we believe this area deserves
continued close attention as DoD experiments with portfolio
management, integrated product teams and other management
oversight concepts. At the present time, virtually every
information technology project that we audit exhibits
significant management problems. Those flaws include poorly
defined requirements and frequent user dissatisfaction.

Information System Security

Another facet of information technology management is assuring
the security of DoD systems and information. Guarding against
the interception of military signals is an age-old problem and,
until recently, was chiefly the province of the cryptographers.
Although the DoD must always maintain tight security for its
classified systems, the past few years have seen the massive
expansion of networked and unclassified DoD information systems.
In turn, this expanded DoD presence on the Internet has led to a
proliferation of attacks and intrusions.

Unauthorized access to computer networks poses a multifaceted
threat to national security that cuts across society's
boundaries: it potentially affects both the public and private
sectors, transcends national borders, and can cause problems in
virtually all economic sectors and levels of government. To
organizations, the threat is both internal and external, and
constantly evolving. Perpetrators can include disgruntled or
irresponsible employees, criminals, hobbyist hackers, agents of
hostile states and terrorists.
                                                                   3


Recent audits indicate that much more needs to be done to
implement the Defense Information Assurance Program fully and to
sustain a robust effort indefinitely, as 21st Century realities
will demand. Although it was widely assumed that the successful
management approaches and mechanisms developed to overcome the
"Y2K" problem would be readily transferable to the information
assurance challenge, this has occurred to a very limited extent.

The strongest part of the DoD effort currently is in the areas
of intrusion detection and incident response. Several Defense
Criminal Investigative Service agents, from my office, are an
integral component of the Joint Task Force on Computer Network
Defense, which gives DoD a powerful capability and is an
excellent example of cooperation between the DoD information
security and Federal law enforcement communities.

Consistent policies, procedures, training and security
assessments in DoD computing centers and among system users
remain weaker areas. In that regard, the Government Information
Security Reform provisions of the National Defense Authorization
Act for Fiscal Year 2001, which mandate annual information
assurance assessments and IG validation audits in Federal
agencies, should be very helpful in terms of focusing management
attention on this problem area. It does not appear that DoD has
done sufficient planning at this point to be able to conduct a
comprehensive self-assessment this year. Nevertheless, one
would expect to see significant incremental improvement each
year and I recommend that Congress extend these reporting
requirements beyond their current sunset date of October 30,
2002.

Other Security Concerns

In addition to the threat posed by unauthorized intrusion into
DoD information systems, a wide range of other security issues
confront the DoD. Those threats include terrorism against U.S.
personnel and facilities, conducted by either conventional or
non-conventional means, and the disclosure or theft of sensitive
military technology. The terrorist attack on the USS COLE in
Yemen and security breaches at the FBI, the Department of
Energy, the Central Intelligence Agency and DoD graphically
demonstrated that security vulnerabilities need to be matters of
utmost concern.

Recent audits have indicated that the DoD needs to improve
security measures to guard against both internal and external
threats. We have not audited force protection issues, but we
                                                                   4


have extensively reviewed a number of other areas where
unacceptable vulnerability exists. These include, as previously
mentioned, the Defense Personnel Security Program, whose
capability to handle the investigative workload basically
collapsed in the late 1990's.

Similarly, there is a consensus in the Executive Branch and
Congress that the export license regime of the 1990's was
inefficient and probably ineffective in controlling the
unintended loss of U.S. military technology. During 2000, the
DoD worked with other Federal agencies to streamline the
licensing processes and approved additional resources to improve
the speed and value of license application reviews. The task of
determining to what extent the fundamental national export
control policies need to change, however, remains unfinished
business for the new Administration and Congress.

Recent audits have indicated that issues such as properly
demilitarizing military equipment before disposal and
controlling the access of contractors and visitors to technical
information at military engineering organizations and
laboratories need more attention.

Financial Management

The DoD made several major financial management improvements
during the 1990's, but needs further reform and more senior
management attention to address a wide range of serious
concerns.

Perhaps the best known of those problems is that the DoD remains
unable to comply with the requirements in the Chief Financial
Officers Act of 1990 and related legislation for auditable
annual financial statements. The results of audits of the DoD-
wide and other major financial statements for FY 2000 were
essentially the same as in previous years. The Military
Retirement Fund statements received a clean audit opinion, but
all other major DoD financial statements were unauditable.
Previous goals for obtaining clean opinions on all or most
annual year-end statements during the FY 2000 timeframe were
unrealistic and it is unclear what a realistic goal would be at
this point. A couple of relatively small DoD organizations and
funds have achieved favorable opinions or may do so in the near
future, but I see little prospect for a clean opinion on the
DoD-wide year-end financial statements before the middle of this
decade.
                                                                   5


The root problem is that DOD lacks modern, integrated
information systems that can compile auditable year-end
financial statements. This also means that the financial data
provided daily, weekly or monthly to managers and commanders is
often unreliable.

During the past year, the DoD made hopeful progress in
addressing major impediments to favorable audit opinions. These
problems cannot be solved quickly and some could not be
addressed previously until new Federal accounting standards were
issued and interpreted, which is still an incomplete process and
is not controlled by DoD. Policies were issued to implement
several new accounting standards and more contractors were
engaged to provide their expertise on a variety of issues, such
as determining the value of different categories of property.

Most importantly, the Department took steps to apply the lessons
learned from the successful DoD Y2K conversion program to the
financial system compliance effort. The DoD Senior Financial
Management Council, which had not met for several years, was
reconstituted to ensure senior management control. A
comprehensive program management plan was issued on January 5,
2001.

We strongly recommended this initiative. Indeed, I believe it
is the most heartening development in this area in several
years. I urge the new Administration and Congress to support
this adaptation of the successful Y2K management approach to the
somewhat similar information systems challenge involved in
attaining CFO Act compliance. The Defense Financial Management
Improvement Plan shows cost estimates of $3.7 billion for
FY 2000 through FY 2003 to make critical reporting systems
compliant with applicable standards. We believe those estimates
are understated. With proposed spending of that magnitude, it
is imperative that a highly disciplined management approach be
used.

The new approach will fill a long-standing gap by providing good
performance measures for the most important aspect of the DoD
financial management improvement effort. As welcome as those
metrics will be for measuring system compliance status, however,
even they will not measure the usefulness of the data to
managers, appropriators or budget committees. Numerous recent
statements and testimony to Congress by the Office of Management
and Budget, GAO and DoD officials have stressed that the
ultimate goal of financial management reform legislation is
ensuring useful financial information for sound decision-making
                                                                   6


by managers throughout the year, not merely audit opinions on
year-end financial statements. We agree. Audit opinions are a
simple and readily understandable metric, but judging the
usefulness of financial information is far more difficult.
Likewise, audit opinions on financial statements provide little
insight into the efficiency of functions such as paying
contractors or capturing the cost of operations of individual
bases and work units. The DoD has long-standing deficiencies in
both of those areas.

Finally, we believe that the seemingly never-ending growth of
complexity in the DoD chart of accounts needs to be reversed.
It is incongruous that credit card companies can manage millions
of accounts with 16 digits but DoD needs to put lines of
accounting with up to more than 200 digits on huge numbers of
contracts, vouchers and other documents, making frequent errors
unavoidable. The system is designed to protect the integrity of
hundreds of thousands of accounts as hundreds of millions of
transactions are made, but accuracy is impossible and meanwhile
many managers find the official accounting records to be of
little use for day to day decision-making.

Acquisition

The DoD is working toward the goal of becoming a world-class
buyer of best value goods and services from a globally
competitive industrial base. The Department hopes to achieve
this transformation through rapid insertion of commercial
practices and technology, business process improvement, creating
a workforce that is continuously retrained to operate in new
environments, and heavily emphasizing faster delivery of
material and services to users. In order to fulfill these
objectives, the DoD has initiated an unprecedented number of
major improvement efforts, including at least 40 significant
acquisition reform initiatives.

Despite some successes and continued promises from ongoing
reforms, the business of creating and sustaining the world's
most powerful military force remains expensive and vulnerable to
fraud, waste and mismanagement. In FY 2000, the DoD bought
about $156 billion in goods and services, with 15 million
purchasing actions. The Department currently is attempting to
stretch its acquisition budgets across 71 major programs,
estimated to cost $782 billion, and 1,223 smaller programs worth
$632 billion.
                                                                   7


The scope, complexity, variety and frequent instability of
Defense acquisition programs pose particularly daunting
management challenges. Aggressive acquisition cost reduction
goals have been established, but it is too soon to tell if they
are achievable. Many specific initiatives have not yet been
fully implemented and are in a developmental or pilot
demonstration phase.

In the push to streamline procedures and incorporate commercial
practices and products, the Department cannot compromise its
insistence on quality products and services at fair and
reasonable prices. An inherent challenge throughout the
Department's acquisition reform effort is ensuring that
critically needed controls remain in place and there is proper
oversight and feedback on new processes. Recent audits
continued to indicate a lack of effective means for identifying
best commercial practices and adapting them to the public
sector; overpricing of spare parts; inattention to good business
practices and regulations when purchasing services; poor
oversight of the several hundred medium and small acquisition
programs; and adverse consequences from cutting the acquisition
workforce in half without a proportional decrease in workload.

Although the DoD must continue to address the challenges of how
to control the cost of purchased goods and services, the most
fundamental acquisition issues confronting the Department relate
to requirements and funding. The expanding national dialogue on
military missions and the ongoing Defense Review may result in
radical changes to DOD missions, military force structure and
acquisition requirements. Whether changes in requirements and
the topline budget ultimately are major or relatively minor,
there needs to be a far-reaching rebalancing of acquisition
programs to match available funding.

Finally, we believe that the Department needs to put more
acquisition reform emphasis on ensuring the quality,
serviceability and safety of purchased equipment, parts and
supplies. Concentrating on prices and timely delivery is vital,
but quality should be the most important attribute for DoD
purchases, especially for materiel used by the warfighters.
Minimizing vulnerability to fraud, especially false statements
regarding product testing and product substitution, remains
imperative. We currently have nearly 700 open procurement fraud
investigations and there were 134 convictions, with recoveries
of $170 million, from procurement fraud cases during FY 2000.
                                                                   8


Health Care

The Military Health System (MHS) costs over $20 billion annually
and serves approximately 8.2 million eligible beneficiaries
through its health care delivery program TRICARE. TRICARE
provides health care through a combination of direct care at
Military Department hospitals and clinics and purchased care
through managed care support contracts. The MHS has dual
missions to support wartime deployments (readiness) and provide
health care during peacetime. The MHS faces multiple
challenges: attaining full funding, cost containment,
transitioning to managed care, and data integrity.

Cost containment for peacetime health care is challenged by
program expansion, historically poor budget estimating
techniques, lack of good cost information and significant levels
of health care fraud. Lack of comprehensive patient-level cost
data has made decisions on whether to purchase health care or
provide the care at the military treatment facility more
difficult.

To combat health care fraud, the Defense Criminal Investigative
Service has developed an active partnership with the TRICARE
Management Activity to give high priority to health care fraud
cases, which comprise a growing portion of the overall
investigative workload. We have about 500 open criminal cases
in this area. In FY 2000, our investigations led to 94
convictions and $529 million in recoveries.

Supply Inventory Management

Supply management to support U.S. military forces, which are
located around the world and use several million different types
of weapon systems, other equipment, spare parts, fuel, apparel,
food items, pharmaceuticals and other supplies, may be the most
difficult logistics challenge in the world. Despite the clear
need to modernize DoD supply operations, it should be noted that
U.S. military logistics performance has been excellent in
demanding situations such as recent deployments to comparatively
remote areas of the world.

Every facet of supply management involves challenges and it is
critically important to recognize that weapon systems and other
equipment must be designed, selected and procured with logistics
support as a paramount concern. The use of standardized parts,
commercial items, non-hazardous materials and easy to maintain
components will considerably ease the supply support problem for
                                                                   9


each system or piece of equipment. Conversely, inattention to
such factors during acquisition will increase the risk of higher
costs and logistics failures.

The logistics community relies heavily on program managers and
operators to help forecast supply requirements, and historically
this has been very difficult. The Department has been
justifiably criticized for accumulating excessive supply
inventories, but supply shortfalls are at least as great a
concern due to the impact on readiness. Current logistics
reform initiatives are principally focused on introducing
private sector logistics support practices, which in turn are
based on applied web-based technology. The DoD has initiated a
myriad of logistics improvement initiatives, most of which are
still in early stages. For example, the Defense Logistics
Agency started a five year "logistics makeover" of its
acquisition, processing and distribution practices last August.
As logistics reform continues, we anticipate continuing valid
concerns about all phases of supply support, including
requirements determination, procurement, distribution, and
disposal.

Other Infrastructure Issues

Despite numerous management initiatives to reduce support costs
so that more funds could be applied to recapitalizing and
ensuring the readiness of military forces, more can and should
be done. Organizations throughout the Department need to
continue reengineering their business processes and striving for
greater administrative efficiency.

Unfortunately, cutting support costs can easily become
counterproductive if the quality of support services and
facilities is degraded. In addition, there are numerous bona
fide requirements in the support area that will be expensive to
address. For example, the average age of structures on military
installations is 41 years and wholesale recapitalization is
needed. In the category of family housing alone, a third of the
285,000 units require replacement in the next several years.
The backlog of real property maintenance is $27.2 billion.

The area with the most promise for reducing installation level
costs is base closures. Some DoD studies indicate that the base
facility infrastructure exceeds requirements by 23 percent. We
believe one or possibly two more rounds of base closure and
realignment would be prudent national policy.
                                                               10


Readiness

Concern about the readiness of U.S. military forces was a
principal issue last year in congressional hearings and was
addressed during the Presidential election campaign. There is a
fairly broad consensus that readiness shortfalls exist, although
the extent of impairment to mission capability is more
contentious. Clearly, there are spare parts shortages;
significant backlogs for depot maintenance ($1.2 billion);
concerns related to recruiting, retention and morale;
disproportionately numerous deployments for some units;
unanticipatedly high operating tempo; and equipment availability
problems. In response, the DoD and Congress have made major
budget adjustments and military entitlements have been expanded.
The Department's readiness posture ultimately depends, however,
on the effectiveness of hundreds of support programs, which
range from training to supply management.

The DoD audit community supported the successful program to
overcome the Year 2000 computer challenge, which the Department
considered to be a major readiness issue, with the largest audit
effort in DoD history. The IG, DoD, issued 185 "Y2K" reports.
Due to that massive commitment, resource constraints and other
workload, our recent coverage of other readiness issues was
severely limited. We plan to restore at least some of the
necessary coverage during FY 2001, continuing our particular
concentration on chemical and biological defense matters. On
January 31, for example, we issued a report on the establishment
of National Guard Weapons of Mass Destruction-Civil Support
Teams. The audit indicated they were not yet ready for
certification as mission-ready. We are working with the
involved DoD organizations to ensure that the concerns related
to those certifications are expeditiously and fully addressed.
Likewise, we are reviewing the accuracy and usefulness of a
number of performance measurements reported by DoD to the
Congress, many of which relate to readiness.

Human Capital

Like most government organizations, DoD faces a range of serious
personnel management issues. The deep cuts in both the military
force structure and the civilian workforce after the end of the
Cold War were not accompanied by proportionate reductions in
military force deployments or in civilian workload. On the
contrary, military operations tempo has been very high and there
have been indications of morale problems among both military and
civilian personnel. Among the negative effects of downsizing
                                                                  11


are increased retention problems because of slow promotions and
overworked staffs, recruiting problems and skills imbalances.

Human capital concerns apply in virtually all segments of the
workforce. Our February 2000 report on the impact of cutting
the DoD acquisition workforce in half was received with
considerable interest by both the DoD and Congress. The Federal
Chief Information Officers Council has been pushing vigorously
for attention to problems in the information technology
workforce. The Military Department Surgeons General have
testified to Congress on the detrimental effect of cutting
medical staff by 30 percent, without proportionate decreases in
military treatment facility workload. The Secretary of Defense
Annual Report to the President and the Congress for 2001
includes the following analysis of the DoD Test and Evaluation
(T&E) community:

     "Since 1990, the T&E business area has reduced government
personnel by more than 40 percent, and T&E institutional budgets
by 30 percent. Over this same period, developmental test and
evaluation workload has remained essentially stable, and
operational test and evaluation workload has significantly
increased. As a result, T&E is not sufficiently funded or
manned to effectively and efficiently address the test and
evaluation challenges of the next decade. To be responsive to
the philosophy of early use of T&E for discovery of military
effectiveness and suitability issues, T&E personnel will be
overextended. While the principles of the faster, better,
cheaper acquisition reform philosophy are sound, the
implementation which has stretched the resources of T&E has also
resulted in a rush-to-failure mode for some acquisition
programs."

In addition to rethinking what workforce size is needed to meet
mission requirements, as opposed to cutting mission capability
to meet arbitrary personnel reduction goals, the DoD needs to
develop more effective training methods to enable continuous
learning to keep abreast of emerging technology and changing
management practices. It also must find ways to compensate for
the pending retirement of a large portion of the experienced
workforce, improve competitiveness with private industry, and
develop better incentives for productivity improvement.

The recent initiatives on improving military pay and benefits,
the development of a pilot personnel management reform program
for acquisition personnel, and other new initiatives indicate
                                                               12


that human capital issues are now in the forefront of management
concerns.

Summary

This has been a broad brush treatment of a large and complicated
picture. A list of some of the FY 2001 audit reports pertaining
to the top ten problem areas is attached for further
information. In closing, I would like to emphasize that, on the
whole, DoD managers react positively and generally do their best
to correct the problems identified by my office. The Department
agreed to take responsive action on 96 percent of the over 3,000
recommendations made in Inspector General, DoD, reports during
the past three years. The fact that serious problems persist is
generally attributable to their inherent difficulty or to
conflicting priorities, rather than indifference toward the best
interest of the Department and the taxpayer, and at least some
progress is evident in all areas. The prospect of the new
administration bringing fresh viewpoints and insights to bear on
these problems also bodes well for making more progress on them.

This concludes my written statement.

Attachment
        SELECTED INSPECTOR GENERAL, DEPARTMENT OF DEFENSE
                       REPORTS FROM FY 2001

INFORMATION TECHNOLOGY MANAGMENT

D-2001-019 Program Management of the Defense Security Service
Case Control Management System, December 15, 2000

The Defense Security Service did not effectively manage the high
risk involved in the integration of the Case Control Management
System and the Enterprise System. As a result, those systems
had significant limitations and were insufficiently tested and
evaluated for operational effectiveness prior to deployment in
October 1998, leading to failures that degraded Defense Security
Service productivity. As of September 2000, project management
had been greatly improved, but high risks remained. Resolution
of design problems was continuing and measurements for
reliability and maintainability at production objectives were
still needed.

The Air Force Program Management Office had developed a phased
acquisition strategy to stabilize the Case Control Management
System and the Enterprise System with product improvements and
incrementally migrate it to an improved Enterprise System
architecture between FY 2002 through FY 2008. However, the DoD
needs to consider alternative solutions for processing personnel
security investigations before further decisions are made on
future system architecture.

D-2001-030, Oversight of Defense Finance and Accounting Service
Corporate Database, December 28, 2000

There was high risk that DoD would not be able to achieve its
goal of a single, integrated system, because management was
focused on individual systems and system ownership is fragmented
among many DoD Components. A more integrated management
approach is needed to attain the full benefits associated with
initiatives such as the Defense Procurement Payment System,
Defense Standard Disbursing System, Defense Cash Accountability
System, and Defense Departmental Reporting System. These
benefits are a standard system for the business areas and a
single database to store information.

D-2001-015, Defense Environmental Security Corporate Information
Management (DESCIM) Program, December 7, 2000
                                                                   2


The DoD did not effectively implement and manage the DESCIM
Program, which did not achieve its stated goal of developing a
standard system to meet mission reporting and management
information requirements. The DoD spent 9 years and $100
million on DESCIM.

D-2001-014, Development and Implementation of a Joint Ammunition
System, December 6, 2000

The DoD spent 8 years and $41.3 million developing a new system
for the logistical and financial reporting of the ammunition
inventory. Despite those efforts, DoD did not produce a working
system. During the audit, DoD suspended work on the most recent
development effort, the Joint Ammunition Management Standard
System, and began considering other alternatives. However, DoD
personnel were not adequately considering an existing Navy
system, the Conventional Ammunition Integrated Management
System, as one of the alternatives. Navy personnel indicated
that, with limited modification, the Conventional Ammunition
Integrated Management System would be capable of meeting mission
requirements. Otherwise, DoD would spend $71 million
unnecessarily and be forced to use multiple non-compliant
systems in the meantime.

INFORMATION SECURITY

D-2001-046, Information Assurance at Central Design Activities,
February 7, 2001

The three Central Design Activities we visited had not certified
or accredited their software development environments as
required by DoD policy. In addition, those Central Design
Activities did not participate in the accreditation of software
development environments created for them and housed at Defense
Information Systems Agency facilities. As a result, there is an
increased risk of unauthorized access to and modification of DoD
software. Likewise, controls were inadequate to detect and
remove malicious code from some software products under
development at these sites.

D-2001-029, General Controls Over the Electronic Document Access
System, December 27, 2000

System security controls were insufficient and additional
efforts to improve security by several DoD organizations were
needed.
                                                                   3


D-2001-013, DoD Compliance With the Information Assurance
Vulnerability Alert Policy, December 1, 2000

The Deputy Secretary of Defense issued an Information Assurance
Vulnerability Alert (IAVA) policy memorandum on December 30,
1999. Recent events demonstrated that widely known
vulnerabilities exist throughout DoD networks, with the
potential to severely degrade mission performance. The policy
memorandum instructs the Defense Information Systems Agency to
develop and maintain an IAVA database system that would ensure a
positive control mechanism for system administrators to receive,
acknowledge, and comply with system vulnerability alert
notifications. The policy requires the Commanders in Chief,
Services, and Defense agencies to register and report their
acknowledgement of and compliance with the IAVA database.
According to the policy memorandum, the compliance data to be
reported should include the number of assets affected, the
number of assets in compliance, and the number of assets with
waivers. The policy memorandum provided for a compliance review
by the Inspector General, DoD.

As of August 2000, DoD progress in complying with the policy
memorandum had not been consistent. At that time, all 9
Commanders in Chief, 4 Services, and 14 Defense agencies had
registered as reporting entities with the IAVA database, but 4
other DoD Components had not. Also, information contained in
the database for the alerts posted in 2000 showed that of the
Components that had registered, only four Commanders in Chief,
one Service, four Defense agencies, and two other DoD Components
had reported compliance in accordance with the IAVA policy. As
of November 2000, however, DoD had made significant progress.

D-2001-017, Unclassified but Sensitive Internet Protocol Router
Network Security Policy, December 12, 2000

The DoD lacked authoritative and current policy to ban
unauthorized Internet access connections. As a result,
individual installations and commands may have made questionable
decisions on commercial Internet access, complicating the
security challenge.

D-2001-016, Security Controls Over Contractor Support for Year
2000 Renovation, December 12, 2000

The DoD Components used techniques, such as access controls,
configuration management, and code verification, to monitor and
control contractor access to the 159 mission-critical systems in
                                                                   4


our sample that were renovated by contractor personnel during
the year 2000 renovation effort. However, they did not assess
risk for 103 of those 159 systems and did not reaccredit 119
systems from a security standpoint. As a result, at least seven
DoD Components were not assured that documented security
postures were valid. Further, potential risks to the mission-
critical systems were unknown and the systems may be exposed to
increased risk of unauthorized access and modification.

OTHER SECURITY CONCERNS

D-2001-065, DoD Adjudication of Contractor Security Clearances
Granted by the Defense Security Service, February 28, 2001

Defense Security Service case analysts, in granting security
clearances to DoD contractors, were using processes that did not
meet the requirements of Executive Order 12968, "Access to
Classified Information," August 4, 1995, which requires
appropriately trained adjudicators and uniform standards for
granting security clearances. As a result, contractor
clearances may not have been properly justified in all
instances.

D-2001-007, Foreign National Security Controls at DoD Research
Laboratories, October 27, 2000

Procedures at the Army Research Laboratory and the Air Force
Research Laboratory-Munitions provided reasonable assurance that
release of controlled unclassified and classified information to
foreign nationals was in accordance with visit authorizations or
certifications. However, the Defense Advanced Research Projects
Agency and the Naval Research Laboratory controls over the
dissemination of foreign disclosure instructions needed
improvement. Specifically, for 208 of 270 official visits
reviewed, the Defense Advanced Research Projects Agency and the
Naval Research Laboratory did not disseminate foreign disclosure
instructions to the program managers hosting foreign nationals.
As a result, program managers were hosting foreign nations on
official visits unaware of national security foreign disclosure
restraints and may have inadvertently released unauthorized
technical information to other countries. The Military
Department laboratories' approval processes for visits by
foreign nationals were adequate. However, the Defense Advanced
Research Projects Agency security controls over the approval
process for foreign national visitors were weak. Specifically,
controls for granting building access for foreign national
visitors representing U.S. entities required improvement. Also,
                                                                   5


the Defense Advanced Research Projects Agency database contained
inconsistent and inaccurate data. As a result, controls over
the disclosure of controlled unclassified information to foreign
nationals were not effective and U.S. personnel may have
inadvertently disclosed controlled unclassified information to
other countries, including countries of concern, without
authorization.

FINANCIAL MANAGEMENT

D-2001-071, Navy Financial Reporting of Government-owned
Materials Held by Commercial Shipyard Contractors, March 2, 2001

The Navy reported the value of Government-owned materials held
by contractors using the Contract Property Management System
database, which did not provide complete or accurate financial
data that met the requirements of Federal accounting standards.
Furthermore, the Navy overstated the value of $4.3 billion of
Government-owned materials reviewed at five commercial shipyards
by at least $1.4 billion for FY 1999. As a result, the Navy
disclaimed the appropriateness of the balance on its financial
statements for FY 1999. For FY 2000, the Navy is not reporting
any values for Government-owned materials held by contractors on
its financial statements. Until corrected, the Navy will
continue to report incomplete and inaccurate financial data in
FY 2001 and beyond.

D-2001-070, Internal Controls and Compliance With Laws and
Regulations for the DoD Agency-Wide Financial Statements for FY
2000, February 28, 2001

The DoD could not provide sufficient or reliable information for
us to verify amounts on the FY 2000 DoD Agency-Wide Financial
Statements. We identified deficiencies in internal controls and
accounting systems related to General Property, Plant, and
Equipment; Inventory; Environmental Liabilities; Military
Retirement Health Benefits Liability; and material lines within
the Statement of Budgetary Resources. The DoD processed at
least $4.5 trillion of department-level accounting entries to
the DoD Components financial data used to prepare departmental
reports and the DoD Agency-Wide financial statements for FY
2000. Also, $1.2 trillion in department-level accounting
entries to financial data, used to prepare DoD Component
financial statements, were unsupported because of documentation
problems or improper because the entries were illogical or did
not follow generally accepted accounting principles.
                                                                   6


D-2001-042, Accounting and Disclosing Intragovernmental
Transactions on the DoD Agency-Wide Financial Statements,
January 31, 2001

Since FY 1996, DoD made little progress in accounting for and
disclosing amounts of eliminating entries. Similarly, the
Department has been slow to initiate improvements that are
needed to ensure that all of the intragovernmental transactions
were captured and the amounts were accurate. In response to
prior audit reports, DoD indicated that it could not perform the
critical checks because many of the accounting systems did not
capture all the data necessary to reconcile with partners or to
accurately identify elimination transactions and balances.

The FY 1999 DoD Agency-wide financial statements reflected
$229.4 billion in intragovernmental transactions between buyers
and sellers that were not reliable and were not adequately
supported. The DoD reported $236.7 billion in eliminating
entries that were not reconciled with intragovernmental accounts
and buyer and seller transactions. The Defense Finance and
Accounting Service made $298.8 billion (absolute value) in
accounting entries to intragovernmental and public accounts that
were not adequately reconciled. In addition, the elimination of
intra-agency transactions on the Statement of Net Cost were made
to the total program cost and revenue lines and not by the
specific programs that made up the totals. As a result, the DoD
Agency-wide financial statements continue to contain material
misstatements, the amounts reported for intragovernmental line
items are unreliable, and unless corrected, will continue to
contain material misstatements for FY 2000 and beyond.

D-2001-024, Performance Measures for Disbursing Stations,
December 23, 2000

The Defense Finance and Accounting Service (DFAS) lacked a plan
to measure and improve the performance of disbursing stations in
reconciling differences in deposits, interagency transfers, and
checks issued. The DFAS did not measure the performance of:

     o 353 (90.1 percent) of the 392 disbursing stations with
deposit activity,
     o 67 (64.4 percent) of the 104 disbursing stations with
interagency transfer activity, and
     o all 500 disbursing stations that issue checks.

As a result, DFAS could not identify disbursing stations with
significant unreconciled differences. The disbursing stations
                                                                   7


with the 10 largest average differences in deposits, interagency
transfers, and checks issued accounted for $3.5 billion (58.3
percent) of the $6 billion average difference (absolute value)
reported on the September 30, 1999, and April 30, 2000,
Statements of Differences and Comparison Reports.
Reconciliation of those disbursing stations' differences would
significantly reduce the total DoD differences in deposits,
interagency transfers, and checks issued and improve the
accuracy and auditability of the DoD Fund Balance With Treasury
account.

ACQUISITION

D-2001-066, Acquisition of the Advanced Tank Armament System
(ATAS), February 28, 2001

The Army did not establish a viable acquisition strategy to
develop and acquire the ATAS beyond the program definition and
risk reduction phase. Instead, the milestone decision authority
considered the ATAS to be a program element for funding
technology demonstrations, but did not appropriately manage and
fund ATAS as a technology demonstration. As a result, the Army
obligated about $85.8 million in research, development, test,
and evaluation funds through FY 2000 and planned to obligate
another $62.9 million from FY 2001 through FY 2007 for a program
that the Army was not intending to fund for the engineering and
manufacturing development phase or the production phase of the
acquisition process.

D-2001-061, Waivers of Requirement for Contractors to Provide
Cost or Pricing Data, February 28, 2001

Contracting officials properly justified, and used in
appropriate circumstances, waivers of the legal requirement to
obtain cost or pricing data in an estimated 189 of the reviewed
contract actions, valued at $1.0 billion, where waivers were
used. Contracting officers also ensured fair and reasonable
prices for those 189 contract actions. The procedures that DoD
contracting organizations used to process the waivers and to
determine fair and reasonable prices were effective and not
burdensome.

The information on cost or pricing data in the Defense Contract
Action Data System was very inaccurate and misleading. We
estimated that 4,264 actions (92.9 percent), valued at $789
million, of 4,590 contract actions were miscoded. The
significant errors grossly inflated the reported number of
                                                                   8


contract actions in which the requirement for contractors to
provide cost or pricing data had been waived.

D-2001-036, Acquisition of the Combat Survivor Evader Locator,
January 25, 2001

The Combat Survivor Evader Locator Program Management Office had
planned for and managed the design and development of the system
well, despite funding shortfalls. The Air Force had been
funding the system through internal Air Force reprogramming
below the threshold that required congressional notification.
During the audit, we had concerns regarding how the Program
Management Office would fund additional interoperability and
security requirements and associated technological challenges.
Although the Program Management Office had requested the
research, development, test and evaluation funds needed to
address those requirements and challenges, the funds were not
included in the Air Force FY 2002 Program Objective Memorandum.
We also were concerned that the Air Force plan to incrementally
purchase its hand-held radio requirements through FY 2038 would
not take advantage of economic order quantities and, more
importantly, would not satisfy a critical mission need in a
reasonable timeframe. Those concerns have been addressed by
revised programming guidance. If fully funded by Congress, this
program can meet its objectives.

D-2001-032, Use of Exist Criteria for Major Defense Systems,
January 10, 2001

For seven of the nine programs reviewed, milestone decision
authorities did not ensure that program managers proposed
program-specific exit criteria for use at the future milestone
decision point(s). As a result, the milestone decision
authorities were limited in their ability to use exit criteria
as a management tool to determine whether programs under their
review and oversight should progress within an acquisition phase
or continue into the next acquisition phase at milestone
decision points.

Program Managers for three of the five major Defense acquisition
programs reviewed did not report their status toward attaining
exit criteria requirements in the quarterly Defense Acquisition
Executive Summary. As a result, milestone decision authorities
and Office of the Secretary of Defense action officers did not
have adequate information for assessing each program's progress
toward satisfying exit criteria requirements and for providing
direction, when needed, between milestone decision points.
                                                                   9




D-2001-012, Acquisition of the Armored Medical Evacuation
Vehicle (AMEV), November 22, 2000

The Army did not have a viable acquisition strategy to acquire
the AMEV at the completion of the engineering and manufacturing
development phase of the acquisition process. The Army had
obligated about $9.7 million in research, development, test and
evaluation funds for the program from its inception in FY 1997
through FY 2000. Another $6.3 million was earmarked to complete
the developmental effort in FY 2001 through FY 2003 for the
program, but the Army did not intend to fund production.

SUPPLY MANAGEMENT

D-2001-054, Defense Logistics Agency Product Verification
Program, February 21, 2001

Defense Logistics Agency product test center planning procedures
were logical and in conformance with test objectives. Testing
was conducted using contract specifications and objectives,
appropriate test equipment was used, and suspected deficiencies
were evaluated. However, the product test selections and the
use of test results needed improvement. Random product test
selections did not include all products available for testing at
all depots. For nonrandom testing, the Product Verification
Office did not fully consider management's quality priorities
and initiatives in test planning. As a result, funds for
product testing were not used in the most efficient manner and
DoD lacked sufficient assurance that some critical products
would perform as expected. For two of the three Defense Supply
Centers, test failures were not consistently investigated and
required actions on test failures were not always taken.
Inconsistent adjudication and ratings of test results hindered
the two Defense Supply Centers from resolving contractor issues
for 36 percent of the 231 FY 1999 tests we reviewed, inflated
quality ratings for as many as 54 contractors and allowed
potentially nonconforming products to remain available for
issue.

D-2001-035, Management of Potentially Inactive Items at the
Defense Logistics Agency, January 24, 2001

Defense Logistics Agency (DLA) managers needed to purge more
National Stock Number (NSN) items, for which there is not longer
a demand, from the supply system. As a result of the audit, the
Defense Supply Center Philadelphia developed a computer program
                                                                  10


to expedite the review process and deleted 20,385 of the 26,434
NSNs that had been in a review status over 90 days at the
Center. However, because there are 64,663 more NSNs that still
require DLA item manager review, we believe that the number of
potentially inactive NSNs that could be deleted is significantly
greater. We calculated that DLA avoided a minimum of $17.2
million of costs by eliminating unnecessary cataloging and
supply system files, and by reducing inventory for the 20,385
NSNs. The full extent of the monetary benefits will be
quantifiable after management identifies and takes action to
delete all inactive NSNs and disposes of obsolete, excess
inventory.

D-2001-002, Defense Logistics Agency Customer Returns
Improvement Initiative Program, October 12, 2000

The Defense Logistics Agency did not fully implement the
Customer Returns Improvement Initiative Program. Therefore,
some depots could not screen and suspend potentially
nonconforming assets received through customer returns. The
Defense Supply Centers did not regularly transmit listings of
nonconforming assets to the depots that participated in the
program, nor did they consistently provide all necessary
information to distinctly identify the assets. As a result, as
many as 28 percent of the Defense Logistics Agency's returned
assets, comprised of over 176,000 individual supplies and spare
parts that had been identified as potentially defective and
returned to the depots, were not screened and could be reissued
to customers without qualification. Conversely, the lack of
detailed information on nonconforming assets forwarded to the
depots may have resulted in some assets being unnecessarily
suspended.

PEACETIME HEALTH CARE

D-2001-037, Collection and Reporting of Patient Safety Data
Within the Military Health System, January 29, 2001

Significant effort to collect and report patient safety data is
ongoing at the Military Treatment Facility level within the
Military Health System. The proposed DoD patient safety
reporting program has the potential to improve data consistency
and provide a means for sharing the data and lessons learned
throughout DoD. To effectively and efficiently implement the
proposed patient safety reporting program, an implementation
strategy is needed. Without an implementation strategy, the
                                                                    11


proposed program's potential for improving health care through
reduction of medical errors may not be maximized.

READINESS

D-2001-059, Armed Services Blood Program Readiness, February 23,
2001

The Armed Services Blood Program relies on frozen red blood
cells for contingency purposes. Inventories were short and
related data were inaccurate. The DoD relies on frozen blood up
to 21 years old, but the Food and Drug Administration standard
for non-military stocks is a 10 year shelf life. Various other
testing, training and planning issues needed attention.

D-2001-045, Government Performance and Results Act Goals:    Tank
Miles, February 7, 2001

The DoD reported 681 tank miles for FY 1999 instead of the 567
M1 Abrams tank miles actually driven, on average, in
installation-based training. Further, DoD did not fully
identify, document, and report the reasons for the 29 percent
shortfall in achieving the 800 tank miles goal and actions taken
to improve the ability of DoD to achieve the goal. The existing
measure established performance objectives for training-only
tank units rather than for the training for the Army's combat
arms teams. Further, limitations on the use of the "Tank Miles"
measures to assess the Army's ground forces were not clearly
explained in the Annual Report. As a result, the "Tank Miles"
performance measure report to Congress provided incomplete
information and was not useful.

D-2001-033, Government Performance and Results Act:   Unfunded
Depot Maintenance, January 12, 2001

The March 2000 DoD performance report was not based on the best
available data and was not supportable. The presentation of
this important readiness metric needs improvement to make the
report more meaningful and useful to DoD and Congress.

HUMAN CAPITAL

D-2001-008, Resources of DoD Adjudication Facilities,
October 30, 2000

The number of personnel security clearance cases requiring
adjudication was rising at a rate faster than most central
                                                                  12


adjudication facilities' ability to process adjudicative
decisions in a timely manner, because the facilities' resource
requirements had not been fully identified and budgeted.
Without corrective action, obtaining a security clearance could
become an increasingly lengthy process for DoD personnel and
contractors and DoD may be subjected to a higher risk of
compromise.
